Evaluation of EEOC Field Office Continuity of Operations (COOP) - Index page
Skip top navigation
Skip to content
Español | Other Languages
U.S. Equal EmploymentOpportunity Commission
Home
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Employees & Applicants
Overview
Coverage
Timeliness
Filing A Charge
How to File
Charge Handling
Confidentiality
Mediation
Remedies
Existing Charges
Filing a Lawsuit
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Employers
Overview
Coverage
Charge Handling
Resolving a Charge
Remedies
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Recordkeeping
EEO Reports/Surveys
"EEO Is The Law" Poster
Training
Other Employment Issues
Federal Agencies
Overview
Federal Employees & Applicants
Federal Complaint Process
Discrimination by Type
Other Federal Protections
Prohibited Practices
Federal EEO Coordination
Federal Agency EEO Directors
Laws, Regulations, Guidance & MOUs
Management Directives & Federal Sector Guidance
Federal Sector Alternative Dispute Resolution
Federal Sector Reports
Appellate Decisions
Digest of EEO Law
Form 462 Reporting
Federal Training & Outreach
Contact Us
Contact EEOC
Find Your Nearest Office
Frequently Asked Questions
Home > About EEOC > Office of Inspector General
TABLE OF CONTENTS
EXECUTIVE SUMMARY
1.0 INTRODUCTION
1.1 Background
1.2 Objective, Scope, and Methodology
1.2.1 Objective
1.2.2 Scope and Methodology
2.0 FINDINGS & CONCLUSIONS
2.1 COOP Management  Structure, Functions, and Perspective
2.1.1 Structure
2.1.2 Functions
2.1.3 Perspective
2.1.4 Conclusions
2.2 Comparison and Analysis of Existing Plans to Applicable Standards
2.2.1 FEMA Standards
2.2.2 Pandemic Influenza
2.2.3 Conclusions
2.3 Field Office Experience  Survey Results
2.3.1 COOP Events and Understanding of COOP Planning
2.3.2 Conclusions
2.4 Field Office Results  New York and New Orleans
2.4.1 New York
2.4.1.1 Recovery and reconstitution
2.4.1.2 Status of COOP efforts
2.4.1.3 Conclusions
2.4.2 New Orleans
2.4.2.1 Recovery and reconstitution
2.4.2.2 Status of COOP efforts
2.4.2.3 Conclusions
2.5 Technology
2.5.1 Field Office Discussions
2.5.2 Conclusions
3.0 RECOMMENDATIONS
3.1 Management Comments
Appendix A Survey Results - Continuity of Operation in Field Offices A-1
Appendix B Evaluation Report Comments
Privacy Policy | Disclaimer | USA.Gov